<html>
<title> - ENSURING COORDINATION, REDUCING REDUNDANCY: A REVIEW OF OMB'S FREEZE ON IT SPENDING AT HOMELAND SECURITY AGENCIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
ENSURING COORDINATION, REDUCING REDUNDANCY: A REVIEW OF OMB'S FREEZE ON 
               IT SPENDING AT HOMELAND SECURITY AGENCIES

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TECHNOLOGY AND PROCUREMENT POLICY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2002

                               __________

                           Serial No. 107-186

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-064              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             CAROLYN B. MALONEY, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

           Subcommittee on Technology and Procurement Policy

                  THOMAS M. DAVIS, Virginia, Chairman
JO ANN DAVIS, Virginia               JIM TURNER, Texas
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
DOUG OSE, California                 ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 1, 2002..................................     1
Statement of:
    Willemssen, Joel, Managing Director, Information Technology 
      Issues, GAO; Mark Forman, E-Government and Information 
      Technology Administrator, OMB; Patrick R. Schambach, Chief 
      Information Officer, Transportation Security 
      Administration, U.S. DOT; S.W. ``Woody'' Hall, Jr., Chief 
      Information Officer, U.S. Customs Service; Sandra Bates, 
      Commissioner, Federal Technology Service, GSA; and Enny 
      DiPentima, president, SRA Consulting and Systems 
      Integration, Information Technology Association of America.     7
Letters, statements, etc., submitted for the record by:
    Bates, Sandra, Commissioner, Federal Technology Service, GSA, 
      prepared statement of......................................    46
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia:
        Briefing memo............................................    64
        Prepared statement of....................................     4
    DiPentima, Enny, president, SRA Consulting and Systems 
      Integration, Information Technology Association of America, 
      prepared statement of......................................    52
    Forman, Mark, E-Government and Information Technology 
      Administrator, OMB, prepared statement of..................    26
    Hall, S.W. ``Woody'', Jr., Chief Information Officer, U.S. 
      Customs Service, prepared statement of.....................    40
    Schambach, Patrick R., Chief Information Officer, 
      Transportation Security Administration, U.S. DOT, prepared 
      statement of...............................................    35
    Willemssen, Joel, Managing Director, Information Technology 
      Issues, GAO, prepared statement of.........................     9


ENSURING COORDINATION, REDUCING REDUNDANCY: A REVIEW OF OMB'S FREEZE ON 
               IT SPENDING AT HOMELAND SECURITY AGENCIES

                              ----------                              


                        TUESDAY, OCTOBER 1, 2002

                  House of Representatives,
 Subcommittee on Technology and Procurement Policy,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia and Turner.
    Staff present: Melissa Wojciak, staff director; Victoria 
Proctor and Teddy Kidd, professional staff members; George 
Rogers and John Brosnan, counsels; Mark Stephenson, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Tom Davis of Virginia. Good morning.
    Before we begin today's hearing, I want to take just a 
moment to remember our dear friend and colleague, 
Representative Patsy Mink, who passed away this weekend. 
Representative Mink faithfully served the 2nd District of 
Hawaii in the House of Representatives for 26 years, from 1964 
to 1976, and from 1990 to 2002. She was an unquestioned leader 
on women's issues. Congresswoman Mink played a pivotal role in 
authorizing Title IX, the Federal Education Act of 1972. She 
wasn't afraid of breaking down barriers and pursuing new career 
challenges. As the Washington Post noted, ``She was known for 
her achievement of firsts.''
    She had been a loyal member of the Committee on Government 
Reform since 1990. Representative Mink was a valued member of 
the subcommittee and she demonstrated great leadership in the 
complex issues of Federal sourcing policy and intellectual 
property. She was a tireless advocate for Federal employees and 
for ensuring the transparency and accountability of the Federal 
Government. Her presence in the subcommittee will be missed.
    At this difficult time, our thoughts and prayers go out to 
her family and friends, along with her constituents in the 2nd 
District.
    Mr. Turner.
    Mr. Turner. It is indeed with sadness that we convene this 
meeting of our subcommittee of which Patsy Mink was a member. 
Clearly she was a very well respected Member of this House. As 
the chairman stated, she was a strong advocate for her causes 
on behalf of women, on behalf of education, on behalf of those 
who were in need of many of the services Government provides.
    Patsy Mink was a Member of this House for 12 terms. She 
died at the age of 74. We all will miss her. There was none 
more active on behalf of the causes she believed in than Patsy 
Mink. It is indeed with sadness that we begin today in memory 
of our colleague, Patsy Mink.
    Thank you, Mr. Chairman.
    Mr. Tom Davis of Virginia. We would like to welcome 
everyone to today's oversight hearing on the Office of 
Management and Budget's freeze on information technology 
spending for the seven agencies going into the new Department 
of Homeland Security. This freeze is commendable. When it comes 
to protecting homeland security, we need to make sure we are 
not simply sending money out the door and spending more money, 
we need to spend money on what works. Making the new department 
work will require a careful examination of IT redundancies and 
system consolidation at individual agencies that are going to 
be merged into the Department of Homeland Security.
    In the past, the subcommittee has been concerned that there 
has been tremendous push for additional IT spending in homeland 
security agencies without assuring appropriate management or 
accountability for these projects. This temporary freeze should 
allow the Federal Government to ensure spending will yield the 
necessary return on investment for the taxpayers who are paying 
the bills.
    Systems integration and consolidation among the agencies 
moving into the newly established Department of Homeland 
Security is a critical lynchpin for the overall success of the 
agency. Overcoming cultural and technological barriers to 
facilitate timely information sharing will help our Nation 
avoid future terrorist attacks.
    While there has been frustration that many of these 
projects have not gotten underway in a more timely manner 
immediately following the events of September 11, 2001, it is 
essential that additional IT spending include sound business 
planning to ensure effective deployment of homeland security 
solutions. OMB has taken the first step to ensure that is the 
case. The subcommittee would like to understand whether this 
type of review process will continue within the new Department 
of Homeland Security.
    As you know, the House of Representatives passed H.R. 5005, 
legislation that would establish a new Department of Homeland 
Security, in July and the Senate is currently considering a 
similar legislative proposal. In response to the anticipated 
completion of congressional action to establish a new 
department, OMB directed applicable Federal agencies to 
temporarily cease planned information technology 
infrastructure, financial management, procurement and human 
services projects over $500,000, pending a review by an 
investment review group led by OMB and the Office of Homeland 
Security. To assist this review groups, affected agencies are 
to submit to OMB information on their planned investments in 
these areas this month.
    Currently, seven agencies are affected by this freeze. They 
are the Coast Guard, FEMA, the U.S. Customs Service, the 
Transportation Security Administration, INS, the Secret 
Service, and the Animal and Plant Health Inspection Services. 
OMB has stated that it is reviewing nearly $1.4 billion in 
proposed spending for those agencies to determine which 
projects should be halted and which will be allowed to go 
forward.
    Moreover, OMB has suggested that project consolidation has 
the potential to save the Federal taxpayers a minimum of $100 
to $200 million. OMB has established an investment review group 
that is evaluating spending by impacted agencies and 
determining when planned investments should go forward. The 
subcommittee would like to gain a better understanding of how 
the investment review group is making determinations on 
proposed IT projects.
    I look forward to hearing testimony today from our 
Government witnesses on the overall impact of the freeze to 
date and the long-term impact of the freeze, particularly on 
meeting congressionally mandated deadlines for certain IT 
project improvements. For instance, the INS Entry/Exit Visa 
Program is one of the solicitations that is impacted by the 
freeze. What impact will this delay have on meeting 
congressional deadlines?
    Additionally, TSA is here with us today to share how and 
why their IT infrastructure project is going forward while they 
are also planning to be transferred to the new Department.
    I am hopeful we will gain a better understanding of the 
operation of the investment review group and the role of OMB in 
the Office of Homeland Security. Additionally, I am eager to 
hear comments from OMB and the agencies on the quality of the 
business planning documents they are submitting for review.
    I am hopeful that the agencies are mindful of moving 
forward on IT modernizations with the goal of better 
integration of programs to ensure that we will be successful in 
winning the war against terrorism.
    The subcommittee will hear testimony from Joel Willemssen 
of GAO; Mark Forman from the Office of Management and Budget; 
Pat Shambach from the Transportation Security Administration; 
Sandra Bates from the Federal Technology Service of the GSA; 
Woody Hall from the Customs Service; and Mr. Renny DiPentima, 
President of SRA Consulting and Systems Integration Service, 
testifying on behalf of the Information and Technology 
Association of America.
    I will now yield to Representative Turner for an opening 
statement.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.001
    
    [GRAPHIC] [TIFF OMITTED] T6064.002
    
    [GRAPHIC] [TIFF OMITTED] T6064.003
    
    Mr. Turner. I look forward to hearing from all our 
witnesses. On its face a freeze of this nature would seem to be 
appropriate in light of the creation of the new Department of 
Homeland Security but, on the other hand, oftentimes actions 
like this can result in unnecessary delays. Clearly, it is 
critical to the new Department of Homeland Security to ensure 
that all of its IT infrastructure is properly planned and 
coordinated. I would assume that is the major objective in mind 
with this freeze.
    We look forward to hearing from the GAO who has looked at 
this proposal, as well as from each of our witnesses who will 
be involved in trying to assure the IT infrastructure is fully 
molded together in our new Department of Homeland Security.
    Thank you, Mr. Chairman.
    Mr. Tom Davis of Virginia. We will call our panel of 
witnesses to testify, Mr. Willemssen, Mr. Forman, Mr. 
Schambach, Ms. Bates, Mr. Hall, and Mr. DiPentima. As you know, 
it is the policy of this committee that all witnesses be sworn 
before they testify. If you could stand and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Tom Davis of Virginia. To ensure sufficient time for 
questioning, try to limit yourselves to no more than 5 minutes. 
Your total statements will be made a part of the record.
    Mr. Willemssen, thank you for being with us this morning.

 STATEMENTS OF JOEL WILLEMSSEN, MANAGING DIRECTOR, INFORMATION 
     TECHNOLOGY ISSUES, GAO; MARK FORMAN, E-GOVERNMENT AND 
     INFORMATION TECHNOLOGY ADMINISTRATOR, OMB; PATRICK R. 
 SCHAMBACH, CHIEF INFORMATION OFFICER, TRANSPORTATION SECURITY 
    ADMINISTRATION, USDOT; S.W. ``WOODY'' HALL, JR., CHIEF 
   INFORMATION OFFICER, U.S. CUSTOMS SERVICE; SANDRA BATES, 
COMMISSIONER, FEDERAL TECHNOLOGY SERVICE, GSA; RENNY DIPENTIMA, 
PRESIDENT, SRA CONSULTING AND SYSTEMS INTEGRATION, INFORMATION 
               TECHNOLOGY ASSOCIATION OF AMERICA

    Mr. Willemssen. Thank you for inviting GAO to testify 
today. As requested, I will briefly summarize our statement.
    Overall, integrating the diverse information systems of the 
many organizations expected to be a part of the proposed 
Department of Homeland Security would be an enormous 
undertaking. The information technology challenges would 
include establishing an effective IT management organization, 
implementing appropriate security controls, instituting mature 
systems acquisition development and operational practices, and 
addressing human capital issues.
    Among the near term challenges is developing an enterprise 
architecture. Managed properly, enterprise architectures can 
clarify and help optimize the interdependencies and 
interrelationships among operations and the underlying IT 
infrastructure and applications. Work we published earlier this 
year showed that agencies' use of enterprise architectures was 
a work in progress with much left to be accomplished. OMB has 
recognized the importance of architectures and has reported it 
is in the process of defining such a framework for creating a 
national enterprise architecture for homeland security.
    Another near term challenge is establishing and enforcing a 
disciplined IT investment management process for the proposed 
new department. OMB has also reported that it is working on 
this particular issue.
    As part of tackling the IT challenges facing the proposed 
department, in July OMB issued the two memos that you mentioned 
earlier to affected agencies telling them to cease temporarily 
new IT infrastructure and business system investments above 
$500,000 pending a review of investment plans and to identify 
and submit information to OMB on any current or planned 
spending on these types of initiative. This information is 
expected to assist in the administration's transition planning 
for the proposed department.
    OMB's memos do not mean that the work is to be stopped on 
all IT infrastructure and business system projects at affected 
agencies. First, the memos only pertain to funding for new 
development and modernization efforts and not to existing 
systems using operations and maintenance funding. Second, the 
cessation does not apply to funds pertaining to a development 
or acquisition contract that have already been obligated. 
Third, agencies can request an expedited review and approval to 
proceed if they have an emergency or critical need. As of last 
week, we are aware of three such emergency requests that have 
all been approved.
    However, at this time, it is not possible to assess the 
full effect of the memos on selected agencies. OMB officials 
told us that except for those three emergency requests, the 
investment groups reviewing agency submissions have not yet 
taken action on them because neither they nor OMB have 
completed review of the documents.
    In addition, OMB officials told us that OMB is not tracking 
whether or to what extent agencies have halted spending or 
altered system plans as a result of the July memos, although 
they stated that savings from actions would be tracked in the 
future.
    In reviewing the submissions to OMB, we did identify one 
agency, FEMA, that reported it plans to put on hold all 
initiatives related to two of its major projects.
    In summary, OMB is acting to deal with some of the major IT 
challenges to be faced in transitioning to the proposed 
department. We look forward to seeing the results of these 
actions.
    Mr. Chairman, that concludes summary of my statement and I 
would be pleased to address any questions you may have.
    [The prepared statement of Mr. Willemssen follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.004
    
    [GRAPHIC] [TIFF OMITTED] T6064.005
    
    [GRAPHIC] [TIFF OMITTED] T6064.006
    
    [GRAPHIC] [TIFF OMITTED] T6064.007
    
    [GRAPHIC] [TIFF OMITTED] T6064.008
    
    [GRAPHIC] [TIFF OMITTED] T6064.009
    
    [GRAPHIC] [TIFF OMITTED] T6064.010
    
    [GRAPHIC] [TIFF OMITTED] T6064.011
    
    [GRAPHIC] [TIFF OMITTED] T6064.012
    
    [GRAPHIC] [TIFF OMITTED] T6064.013
    
    [GRAPHIC] [TIFF OMITTED] T6064.014
    
    [GRAPHIC] [TIFF OMITTED] T6064.015
    
    [GRAPHIC] [TIFF OMITTED] T6064.016
    
    [GRAPHIC] [TIFF OMITTED] T6064.017
    
    [GRAPHIC] [TIFF OMITTED] T6064.018
    
    Mr. Tom Davis of Virginia. Thank you very much.
    Mr. Forman.
    Mr. Forman. Thank you for inviting me here today to discuss 
homeland security IT investments. My remarks will focus on 
recent administration steps taken to ensure that IT investments 
support the homeland security mission and are appropriately 
integrated in order to leverage technology for mission 
effectiveness while preventing redundant investments and wasted 
resources.
    The national strategy for homeland security emphasizes that 
effective use of IT must accelerate response time but time to 
detect and respond to potential threats and second, improve 
decisionmaking, making the right decisions at the right time. A 
modern IT infrastructure is vital to ensuring we successfully 
meet these and other homeland security goals.
    The key principles for unifying an IT infrastructure 
include the use of effective IT investment management 
techniques to accelerate deployment, reduce risk and achieve 
mission goals; reduce redundant and siloed IT investments; and 
take maximum advantage of economies of scale.
    Business as usual will not enable us to meet our homeland 
security goals. As GAO has noted, we need a comprehensive 
review of IT investment which is being conducted as described 
in my written statement. In July OMB issued two memoranda as a 
first step toward better integration of IT infrastructure by 
using available funds to deploy the highest quality 
technologies while providing an opportunity to save taxpayers 
millions.
    The scope of the memoranda include IT infrastructure and 
business management systems such as financial management, HR 
and procurement systems. The memoranda do not affect steady 
State spending needed to maintain operations, nor do they 
affect mission IT investments such as the entry/exit project 
you mentioned in your opening statement.
    The intent of the memoranda is to ensure that modern 
investments are successful and prevent redundant investments 
and wasteful spending. The memoranda identify homeland security 
IT investment review entities and processes.
    First, in response to an emergency request from an agency 
in accordance with the guidance in the memoranda, OMB and the 
IT Investment Review Group provide a quick response to the 
requesting agency after conducting rapid review.
    A second type of review focuses on larger IT investment 
issues. It is this type of review that we expect the group to 
provide most of the recommendations regarding consultation, 
integration and elimination of siloed or redundant IT 
investments.
    For example, the Transportation Security Administration to 
meet its mission has a business need for network infrastructure 
at airports. However, INS, Customs, FAA and other agencies have 
already built and deployed telecommunications networks that 
would likely be redundant with the newly created TSA network. 
An initial assessment found that existing homeland security 
component agencies plan to spend $257 million in fiscal year 
2003 on IT infrastructure that will support networks at 
airports. Clearly there are multiple opportunities for homeland 
security-related agencies to better leverage IT investments so 
that TSA will not have to build its own telecommunications 
network and homeland security workers can easily communicate 
with each other traditional organizational boundaries.
    In taking this action, OMB is fulfilling its 
responsibilities under Section 5113 of the Clinger-Cohen Act of 
1996 to issue clear and concise direction to agencies for 
ensuring efficient and effective capital planning for IT 
investments which is to include guidance for undertaking 
efficiently and effectively interagency and governmentwide 
investments in IT to improve the accomplishment of missions 
that are common to the Executive agencies.
    Consolidating and integrating the planned $900 million IT 
investments presents significant opportunities for savings, 
while better leveraging IT investments for our homeland 
security. This approach is key to ensuring that IT investments 
accelerate response time and improve decisionmaking. Clearly 
this approach is neither new nor surprising, simply good 
management.
    To achieve our goals, we must all work to effectievly 
leverage IT for homeland security. It requires the use of 
modern management practices and a level of teamwork not always 
seen. It will also require and is already benefiting from a 
tremendous amount of leadership among the executive branch, the 
Congress and the IT industry. Collaborative leadership and 
support is vital to our performance. I would also like to 
commend the review groups for the initial progress. I am 
particularly impressed by the level of team work and 
cooperation in the groups.
    Thank you for your continued leadership, Mr. Chairman, in 
working toward effective and efficient IT management of the 
Federal Government's IT resources.
    [The prepared statement of Mr. Forman follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.019
    
    [GRAPHIC] [TIFF OMITTED] T6064.020
    
    [GRAPHIC] [TIFF OMITTED] T6064.021
    
    [GRAPHIC] [TIFF OMITTED] T6064.022
    
    [GRAPHIC] [TIFF OMITTED] T6064.023
    
    [GRAPHIC] [TIFF OMITTED] T6064.024
    
    [GRAPHIC] [TIFF OMITTED] T6064.025
    
    Mr. Tom Davis of Virginia. Thank you very much.
    Mr. Schambach, thanks for being with us.
    Mr. Schambach. Thank you.
    Before I begin my statement today, I would like to take 
just a moment to convey to the subcommittee Secretary Mineta's 
profound sorrow at the passing of his former colleague and dear 
friend, Congresswoman Mink. The two had built a close 
friendship during the years they shared together in the House. 
Congresswoman Mink was a strong advocate for woman and a highly 
respected member of the Asian-American community. She will be 
sorely missed by her family and friends across the country, by 
you, her subcommittee colleagues, by her constituents in 
Hawaii's 2nd District and by the Secretary of Transportation.
    This is my second time testifying before your subcommittee 
in the short 8 months since I have been the CIO of TSA. We are 
building a world class agency from scratch, assuming new 
Federal functions and completing milestones under stringent 
deadlines and under the glare of the public spotlight. Our 
mission is to protect the Nation's transportation systems to 
ensure freedom of movement for people and commerce. Our stated 
vision is to accomplish this through our people, our processes 
and technologies. I am proud that technology is appropriately a 
part of that vision.
    One of our greatest challenges is creating an 
organizational culture of information sharing. We have a 
wonderful chance to get it right with a blank sheet of paper in 
front of us and whether Congress ultimately approves the 
President's proposal for a Department of Homeland Security, we 
recognize that we must engage with our agency partners in a way 
that agencies have not always undertaken. My staff has been 
working long and hard to craft a secure information technology-
enabled organization that has access to information at the 
right time and the right place.
    Undoubtedly you have heard or read about TSA's new 
information technology managed services approach to providing 
our basic technology needs. We call it ITMS. We took a bold 
approach by describing our basic needs in a statement of 
objectives, the first step in a performance-based contracting 
effort.
    We described our basic needs in terms of employee and 
organizational capabilities like the ability to schedule a 
large number of screener employees at an airport and asked our 
offerors to propose not only the technical solutions but also 
how to tie their deployment success to the success of the 
mission and goals of TSA.
    The winning offeror, Unisys Corp., proposed that they 
receive both incentives and penalties based on whether TSA 
achieves or does not achieve our agency goals. When you take 
into account that we have such basic needs like access to 
computers, telephones and radios that connect us to the broader 
organization, you can readily recognize that success has a very 
basic definition at this stage in our history.
    Our contract contains two initial work orders. The first 
provides for basic infrastructure and the second provides for 
deployment of computer and communications capabilities to our 
estimated 800 TSA locations with a target of December 31, 2002.
    About the time of contract award, which occurred in an 
amazing 3\1/2\ months from requirements to award, OMB created 
the Homeland Security Investment Review Group. This temporarily 
suspended the TSA IT Provisioning Initiative until the business 
case was made and reviewed by the Investment Review Group.
    In view of the President's proposal to create a Department 
of Homeland Security that will include TSA as an important 
element, I agree that a reasoned approach to IT provisioning 
should help avoid costly duplication of products and services 
and allows TSA to leverage our significant buying power even 
further in a combined view.
    TSA quickly arrived at an approach allowing us to move 
forward with our basic needs. We identified an investment 
evaluation model and developed factors on which our basic 
deployment needs would be decided. This was successful and 
within a short time, the Investment Review Group approved our 
basic strategy for deployment. We now have a very basic 
decision model that is being used to determine sharing 
opportunities where we have common presence with both the U.S. 
Customs Service and the Immigration and Naturalization Service.
    Many have asked if the TSA managed services approach is the 
model for future government IT needs of this type. I can only 
say that given our unique circumstances, I see this as the only 
way to get our agency established in the timeframe that we have 
to operate. At the same time, the IT community seems to 
appreciate our flexible approach. We told them what we needed 
to accomplish but did not insist on a specific technical 
approach to carry out our goals.
    Our approach also complies with the President's management 
agenda. We believe we are prudently using the public's money; 
we are relying on strategic outsourcing and are making reasoned 
investments in our IT future.
    That concludes my statement. I would be pleased to answer 
any questions.
    [The prepared statement of Mr. Schambach follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.026
    
    [GRAPHIC] [TIFF OMITTED] T6064.027
    
    [GRAPHIC] [TIFF OMITTED] T6064.028
    
    Mr. Tom Davis of Virginia. Thank you very much.
    Mr. Hall. Thanks for being with us.
    Mr. Hall. Thank you for this opportunity to testify today.
    Since September 11th, the highest priority at the U.S. 
Customs Service has been to keep terrorists and terrorist 
weapons from entering the United States and to protect and 
secure our country's land borders, seaports and airports.
    Customs has an operational presence at every port where 
people and goods enter the United States. Therefore, we are 
well positioned to continue providing leadership and border 
security. Customs works in partnership with many Federal 
agencies, including those potentially impacted by a new 
Department of Homeland Security to manage and control the 
tremendous volume of goods and people entering and exiting the 
United States.
    In addition, Customs currently develops and shares 
enforcement-related intelligence with more than 25 Federal and 
State law enforcement agencies. This shared intelligence 
includes data on nearly 98 percent of all imported cargo and 
nearly 100 percent of international air passenger arrivals. 
License plate numbers of vehicles entering the United States 
are also queried against Federal, State and local indices.
    As you are aware, a principal mission of the 
administration's Homeland Security Initiative is to coordinate 
border security activities among multiple Federal agencies. 
This coordination will require improved collaboration in 
examining cargo conveyances and passengers and in sharing 
critical data. The Federal Government will need to tear down 
unwarranted information stovepipes and build a central 
information sharing clearinghouse and compatible data bases. 
Toward this end, Customs co-chairs the Border Security 
Interagency Working Group with the Immigration and 
Naturalization Service and we are working with the Office of 
Homeland Security and OMB and other agencies on the development 
of an enterprise architecture for the homeland security.
    I also personally meet with the CIOs from a number of 
Federal agencies including the U.S. Coast Guard, INS, 
Transportation Security Agency, Department of State, FEMA, 
Office of Management and Budget and the Office of Homeland 
Security. These meetings are intended to foster dialog on how 
best to leverage current technologies with a focus on improving 
information flow between the agencies and to streamline 
information technology costs and services.
    Customs is also working with the Department of 
Transportation, the Department of Agriculture, Health and Human 
Services and INS to incorporate their requirements into the 
automated commercial environment via shared interface with the 
trade known as the International Trade Data System.
    The Customs modernization program through ACE has already 
begun to develop a single interoperable information technology 
platform that can be used to strengthen our Nation's borders. 
ACE, among other things, is designed to enhance and integrate 
analytical tools, to provide better targeting and analysis of 
entry and passenger data, improve advanced information systems 
to provide a more proactive approach to detect and interdict 
terrorists and other illegal activities. Examples are the 
Customs Trade Partnership Against Terrorism, CTPAT, and the 
Container Security Initiative.
    Under the leadership of the Office of Homeland Security and 
OMB, options to better address border security challenges are 
being reviewed. The flexible information technology platform of 
the Customs modernization program which reflects the 
partnership of trade and border agencies provides the best 
opportunity to accelerate deployment of an integrated border 
security solution in support of the critical homeland security 
mission.
    Customs understands the rationale behind the OMB directive 
and supports the efforts of the Homeland Security IT Investment 
Review Group of which I am a member. We see this initiative as 
critically important and a necessary first step to ensure 
effective information sharing, careful analysis of current 
systems and eventual integration of systems for agencies moving 
under the proposed Department of Homeland Security.
    Based on guidance Customs has received from the Department 
of Treasury and OMB, this directive does not affect Customs' 
initial modernization project, ACE. ACE is primarily a mission 
critical Customs system to enable the processing of imports and 
exports to ensure safe and efficient trade. Consequently, work 
on ACE has not stopped or even slowed. In fact, the first 
fielding of ACE capabilities is fast approaching. Over the next 
5 months we will introduce an Internet-based common user 
interface to selected Customs users, certify the infrastructure 
to ensure that ACE meets its functional security and 
performance requirements and in February, we will roll out 
ACE's first capabilities to the trade community.
    Although ACE is not affected by the OMB memoranda at this 
time, Customs in keeping with the intent of the OMB directive 
to eliminated duplication and ensure effective integration of 
agency systems will submit our current ACE expenditure plan to 
the Homeland Security IT Investment Review Group for formal 
approval before proceeding with the design and build phase of 
the second major block of work on ACE.
    Rather than an impediment, Customs believes the recent OMB 
directive will help ensure that ACE is a truly coordinated 
effort of all border security agencies. ACE could help 
accomplish the objectives of the Homeland Security IT 
Investment Review Group by potentially serving as an 
information technology platform for border security that could 
be leveraged by other agencies in the border enforcement arena.
    I firmly believe the Customs Service has the expertise, the 
experience, the tools and the personnel necessary to protect 
the borders of our country and to serve as a critical deterrent 
to terrorists who target America.
    Thank you again for the opportunity to testify. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.029
    
    [GRAPHIC] [TIFF OMITTED] T6064.030
    
    [GRAPHIC] [TIFF OMITTED] T6064.031
    
    [GRAPHIC] [TIFF OMITTED] T6064.032
    
    Mr. Tom Davis of Virginia. Thank you very much.
    Ms. Bates.
    Ms. Bates. Thank you for this opportunity to appear before 
you this morning. Let me extend my compliments to you, members 
of the subcommittee and your staff on your efforts to assure a 
managed approach to the information technology and 
telecommunications investments of the proposed Department of 
Homeland Security.
    In my statement before the subcommittee, I will discuss two 
main topics. First, I will address the impact of the July 19 
OMB memoranda regarding system development and modernization 
for the homeland security components on FTS business. Second, I 
will review the capabilities of GSA's Federal Technology 
Service to support this new mission of securing the American 
homeland.
    The Federal Technology Service is a channel to the market 
connecting government with private sector IT and 
telecommunications providers. FTS works with Federal agencies, 
our customers to help them choose the best solution, acquire 
it, implement it and manage the financing for it. We have 
fulfilled this role for many years and have developed important 
business relationships with nearly all Federal agencies.
    The agencies and departments currently designated for the 
new homeland security organization are no exception. Of the 22 
organizations designated for the new department, FTS currently 
provides services and support to at least 20 of them. In fiscal 
year 2001, we provided more than $150 million in technology 
services in support directly to homeland security components 
and we expect to exceed that amount in fiscal year 2002.
    The range of FTS support is broad and varied. For example, 
domestic homeland security locations that receive 
telecommunications services through the FTS 2001 contracts 
touch every State across the country. GSA is also involved in 
an extensive project with the newly formed Transportation 
Security Administration to meet space, furniture, supplies as 
well technology needs at 422 airports, 150 Federal security 
director offices and 21 air marshall offices by November 19.
    Mr. Chairman, in preparation for this hearing, we have 
evaluated the FTS business impact of OMB's memo. What we found 
is that much of the business we do with Federal agencies falls 
outside the parameters of OMB's direction to the designated 
homeland security agencies. One reason for this is that the 
largest segment of our customer base, particularly in the area 
of complex, national systems integration projects over $500,000 
is done with the Department of Defense.
    Another factor affecting the impact of OMB's memo on FTS 
business is that two-thirds of our IT solutions business is 
done through our regional IT solutions organizations. The 
average dollar amount of a task order in our regions is under 
$500,000 and the work is generally performed at the regional 
field office level.
    FTS offers a wide array of technical and acquisition 
expertise and access to contract vehicles that are designed to 
support any Federal agency. I can report that we have initiated 
contacts with the Office of Homeland Security to open general 
discussions about FTS' capabilities to support the technology 
infrastructure needs for the new department. Last month, I met 
with Mr. Steven Cooper, Special Assistant to the President and 
Director of Information Integration for the Office of Homeland 
Security. We reviewed overall support FTS is currently 
providing to homeland security components. In addition, we 
discussed some of the challenges they will face in combining 
and consolidating the operations, infrastructures and missions 
of 22 separate components under the proposed department.
    I believe very strongly that FTS can apply its expertise 
effectively to help them as they move forward to architect 
their future. I also believe that the excellent pricing 
available through our contracts can contribute to the savings 
goals that OMB has identified.
    One area of particular significance to the homeland 
security organization will be security. FTS is a recognized 
leader in this area. From our Smartcard Program to our digital 
signature initiatives to our current role leading the e-
authentication initiative for OMB, FTS continues to seek and 
make available the best enabling technologies and services for 
e-government. I am proud to say that the collective expertise 
and capabilities of the Federal Technology Service and our many 
business partners stands ready to support the critical mission 
of homeland security.
    I look forward to building on our already existing trusted 
intergovernmental relationships to help homeland security 
acquire and deploy the 21st Century technology infrastructure 
they need to meet the challenges of their very serious but 
essential mission.
    Thank you again for inviting me to this hearing. I will be 
pleased to respond to any questions you or the committee 
members may have.
    [The prepared statement of Ms. Bates follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.033
    
    [GRAPHIC] [TIFF OMITTED] T6064.034
    
    [GRAPHIC] [TIFF OMITTED] T6064.035
    
    [GRAPHIC] [TIFF OMITTED] T6064.036
    
    [GRAPHIC] [TIFF OMITTED] T6064.037
    
    Mr. Tom Davis of Virginia. Thank you.
    Mr. DiPentima, thanks for being with us.
    Mr. DiPentima. I am speaking today on behalf of the 
Information Technology Association of America.
    Let me say right from the start that ITAA, its member 
companies and I personally voice support for OMB's effort to 
coordinate IT spending for the new Department of Homeland 
Security. We think it is a prudent step to ensure wise IT 
investment decisions and I think it is consistent with the 
goals and tenets of Clinger-Cohen.
    Having said that, I would also like to offer some remarks 
and some cautions both from an industry perspective, from 
myself and my colleagues, as well as personally from the many 
years I spent as the Deputy Commissioner of Social Security and 
the CIO of Social Security, having witnessed some of these 
investment coordination activities in the past.
    First of all, I think there must be an overall enterprise 
architecture for the new department and for the agencies below 
that department. From an industry perspective, this is very 
similar to acquiring somewhere between 7 and 22 different 
companies and trying to merge them into a single company. We 
have a lot of experience with that and know what works and what 
doesn't.
    I think the administration is off to a good start, OMB and 
the people working in homeland security, in laying out 
enterprise architectures and for both the department as well as 
the agencies below them.
    I think there needs to be some triaging of these projects--
not all of these projects are of equal importance. Some are 
mission critical and must be addressed quickly and with some 
sense of urgency. Some, in my opinion, make just good common 
sense. For example, I would think the new department would want 
to consider a common e-mail system rather than having homeland 
security communicate to any large extent over the Internet.
    Third, the task itself is daunting when some situations, 
investments particularly in mission critical systems, might 
have to continue even if they are not precisely in coordination 
with other activities. They shouldn't be redundant, as Mr. 
Forman points out, and they shouldn't move in a direction 
contrary to the architecture but they might have to, for 
mission critical purposes, be allowed to continue for a period.
    I also believe that most of the coordination for this new 
committee, most of these investments, will wrap around the 
ability to share data. After all, the department is being 
brought together mainly for the purpose of having like 
organizations communicate. A great deal of attention will have 
to be given and I believe it is to how to share this data among 
the many systems. Many of these agencies, if not all of them, 
are not integrated within these agencies today, let alone 
having to integrate them across the new Homeland Security 
Department.
    With that, I will conclude my remarks and be happy to 
address nay questions you might have.
    [The prepared statement of Mr. DiPentima follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.038
    
    [GRAPHIC] [TIFF OMITTED] T6064.039
    
    [GRAPHIC] [TIFF OMITTED] T6064.040
    
    [GRAPHIC] [TIFF OMITTED] T6064.041
    
    Mr. Tom Davis of Virginia. Thank you very much and thank 
all of you.
    Let me start the questions. Mr. Forman, let me start with 
you.
    OMB has said it is developing a homeland security national 
enterprise architecture. What is the estimated completion date 
of this architecture, how is it going to relate to the Federal 
Government enterprise architecture and what risks are we 
running making investment decisions for the Department of 
Homeland Security in the absence of an enterprise architecture?
    Mr. Forman. As you noted, the Federal Government is working 
on a Federal enterprise architecture. It is a component-based 
architecture and works through several layers, starting with 
the business layer. It is actually the Office of Homeland 
Security that is leading development with OMB and affected 
agencies of the homeland security national enterprise 
architecture which will fit within and define those appropriate 
components of the Federal architecture, the inventory if you 
will, of what is already out there. There are opportunity 
assessments and GAFF analyses that have to occur and decisions 
priorities set to define the vision of the architecture and 
logical physical elements that need to be deployed.
    In answer to your second question, the architecture will be 
a national homeland security enterprise architecture so we also 
are working with State and local organizations to ensure their 
input. Given that it is component-based, business-driven, as 
recommended by GAO, with the rapid rate of technologies many of 
which are relevant to the homeland security mission, this has 
to be an iterative approach.
    So we anticipate going through different levels of business 
architecture, the data and information architectures and the 
applications architecture, leveraging components in and out and 
they are defined.
    The final variable is the funding approval. We had 
requested some money in a supplemental that was not approved 
for some of this work and given current funding and depending 
on fluctuation on that, we expect the first iteration by late 
spring or next summer.
    The last element of your question, how does it relate to 
the Federal enterprise architecture and the issue of risk, I 
think I have addressed the relationship. These are essentially 
the homeland security elements, things like disaster management 
and response, the entry/exit, etc.
    Not all Federal agencies currently have an enterprise 
architecture as GAO has made clear. Generally, the best 
practices research in GAO's reports show that the risks are 
that we make overinvestment and redundant buys, 
interoperability problems as a result of lack of agreement on 
standards, lack of business process improvements so we buy 
technology but we don't really achieve the performance gains 
and that there are additional systems integration costs 
associated with the lack of standards. Those are all the risks 
and hence we move forward on the other part of the puzzle to 
make this work, the IT Investment Review Group, having a 
capital planning process which I am very comfortable we have 
made good progress on leveraging that architectural work that 
Steve Cooper, the Office of Homeland Security and us have been 
working on.
    Mr. Tom Davis of Virginia. Thus far, OMB's freeze policy 
only applies to infrastructure items and business systems. Are 
you considering a similar policy for the affected agencies' 
mission systems?
    Mr. Forman. The approach we have taken on the mission side 
is much more varied. There are a number of joint initiatives 
going back to the e-government strategy and the President's 
budget decision. For example, as I mentioned in the hearing a 
couple of weeks ago, geospatial one stop, disaster management, 
e-government initiative and Project SAFECOM are three mission 
related e-government and homeland security initiatives that we 
are proceeding with joint IT investments via the budget process 
and existing capital planning process. We expect to add several 
others this year in the capital planning process.
    We are applying the tenets of the Clinger-Cohen Act, 
although that doesn't necessarily mean we issue a Clinger-Cohen 
letter. We do it within the normal budget processes.
    Mr. Tom Davis of Virginia. Other than the programs we 
already know are on this list, are there any mission-critical 
homeland security initiatives that have been delayed by this or 
any similar review? Specifically, the Enhanced Border Security 
and Visa Entry Reform Act of 2002 requires the administration 
to put in place a fully integrated entry/exit system by October 
26, 2003. Do you know the status of that and do you expect the 
administration to release an RFP, which agency or department 
will be responsible for the program and as far as you know, as 
you look at this, how does that October 26, 2003 date look?
    Mr. Forman. The first part of your question, the memoranda 
did not affect mission-related IT investments, so no mission-
related programs were affected.
    The entry/exit system is a joint initiative and we have 
asked the agencies to come together and submit a joint 300 
which has been done, a joint business case. So we recently 
received that and we are reviewing the joint business case.
    It is an integrated project team lead by INS and consists 
of members from Departments of Transportation, State and 
Treasury. We are not aware of any issues that would prevent the 
INS and the Integrated Project Team from meeting the statutory 
deadline.
    One point of departure, our data indicate that the actual 
mandated point is December 2003 for the entry/exit system to be 
in place at air and sea ports and the 50 top land ports by 
December 2004. So the team is working to meet those deadlines. 
We don't have a timeframe when the RFP will actually be 
released but it is our understanding that everything is on 
schedule for meeting those deadlines.
    Mr. Tom Davis of Virginia. Thank you very much.
    Mr. Turner.
    Mr. Turner. Mr. Willemssen, I was looking at your report 
and in conclusion, you say, ``The impact of OMB's action is to 
early to assess.'' You noted several things that this OMB 
memorandum does not stop, several investments in information 
technology.
    When you listed those, I guess what I was wondering is 
whether you are suggesting that the freeze was not broad 
enough, perhaps it wasn't dealing with the full range of IT 
infrastructure issues or whether those were just exceptions you 
deemed to be appropriate from the freeze?
    Mr. Willemssen. The primary purpose of listing those was to 
clarify exactly what the so-called freeze entailed. I think 
when many heard that OMB was putting a freeze on IT spending at 
affected agencies, many observers hearing that said, oh, a 
freeze, everything is going to be on hold. Well, that is not 
what it is. There are a number of exceptions.
    We think OMB's initial approach of focusing on 
infrastructure and business systems is an appropriate one. We 
think the mission side will also have to be assessed but I 
think picking infrastructure and business systems first is an 
appropriate choice.
    The apparent redundancies that may be there will be easier 
to identify than it would be in the mission case. So I think 
the overall approach is sound.
    We look forward to further results on implementation and 
how this is actually carried out. So we are generally in 
agreement conceptually with the plan but we are anxious to see 
the implementation and what actually occurs on these 
infrastructure and business system projects.
    Mr. Turner. In the area of the exceptions, the mission side 
and these other things you mentioned, are there areas there 
that need to be looked at and it just so happened they were a 
bit more difficult to deal with or there are other impediments, 
contracts already in place and those kinds of things?
    Mr. Willemssen. What we would like to see is OMB and the 
entities involved in looking at the variety of systems is to 
continue to aggressively pursue the development of the 
enterprise architecture. As Mr. Forman mentioned, not only what 
is currently out there with the plethora of systems at many 
different agencies but in what direction do they want to go, 
where do they want to eventually be and to get from that as is 
to B point, they will need to put together a transition 
strategy. Then you will map that transition strategy against 
proposed investments and in many cases, I think you are going 
to see things drop out also in the mission area.
    Ideally and conceptually, you would like to have those 
architectural documents in hand so you know what to map to. 
Otherwise it is very difficult to know where you are going and 
what the end game is.
    Mr. Turner. Mr. Forman, what would you estimate the 
percentage of IT spending the freeze affects as opposed to the 
total range of things that Mr. Willemssen is referring to?
    Mr. Forman. The total range, of course we don't have the 
full data on the mission side but on the infrastructure and 
business systems side, it is somewhere in the $1.5 to $2 
billion. What it affects obviously relates to what is already 
in the procurement cycle versus what is underway, operations 
and maintenance and simple modifications.
    The approach here is not to consider this because of the 
way we do IT in general in industry and in government as kind 
of light switch on, light switch off, that most of the 
infrastructure investments, even today, are incremental except 
for the TSA issue which is pretty much from the bottom up. I 
think that is essentially the approach we have adopted there 
and is where we are going to see the greatest payoff, looking 
at what is already deployed, what they can leverage, and rather 
than putting in a new separate infrastructure that ultimately 
people won't be able to communicate across but building onto 
the existing infrastructure, in TSA's case is probably where we 
will see the greatest payoff. There is a percentage of the 
total budget and I would be totally guessing there.
    Mr. Turner. Mr. Schambach, when we look at your agency 
being created from ground up, now contemplating being a part of 
this larger Homeland Security Agency, how does that impact the 
work you have been involved in and how difficult is it and does 
it set you back in accomplishing what you understand to be your 
mission to be going through this process of having been 
authorized and then moved into this larger agency? I would like 
a little perspective on that from you?
    Mr. Schambach. Certainly standing up TSA when we were just 
looking at our own organization was a daunting enough 
challenge; bringing the whole homeland security picture into 
place makes it a lot more complex as you mentioned.
    Selfishly I would say that had we been able to move ahead 
independently, we would be a bit further along than we are 
today. On the other hand, looking at it from a more global 
government perspective, I see the need, as I said in my 
testimony, of going through the process that OMB has 
stipulated, trying to bring together investments where that is 
possible.
    I have had to insist on very quick decisionmaking in the 
Investment Review Group because we have such a schedule that we 
have to stick to and thankfully the decisions have been quick. 
I hope it stays that way as we go forward.
    Mr. Turner. Thank you.
    Mr. Tom Davis of Virginia. Mr. Schambach, in your view, 
what do you believe allowed the contract award to move ahead 
for the ITSM contract at TSA and what steps are you taking to 
ensure that this major infrastructure project can be integrated 
into the overall IT architecture at the new Department?
    Mr. Schambach. I think two things allowed us to move 
forward quickly. One is a recognition on the part of the 
Investment Review Group of just what we were facing in standing 
up TSA's as an organization without any infrastructure on the 
ground whatsoever. With 31,000-plus employees on board right 
now, they are literally using payphones in the airports to 
communicate. That is the difficulty we are having.
    The second issue was we did arrive at a set of factors of 
how investment decisions would be made in the case of TSA, 
focusing primarily on where we have a common presence with 
Customs and INS. That alternative analysis is being evaluated 
right now and those decisions on the top 100 airports where we 
share presence, those are the issues where decisions will be 
made in the coming I hope week.
    Mr. Forman. If I may, I would like to applaud the efforts 
by Pat and his team. This is groundbreaking work for the 
Federal Government to have a scenario where one bureau 
essentially can work together with two other bureaus is cutting 
across the hierarchy instead of up and down the hierarchy and 
literally make a cost benefit assessment as a partnership I 
don't believe has ever been done before.
    This model, this cost benefit assessment tool, was put 
together basically by some people working long and hard over a 
weekend. So it did work fast but it is extraordinary work for 
the Federal Government.
    Mr. Schambach. In answer to the second half of your 
question, on how do we ensure integration, we are very active 
members with the enterprise architecture team at homeland 
security with the common directory for e-mail with the Security 
Infrastructure Group, so I think we are laying plans that 
ensure we integrate with the rest of homeland security.
    Mr. Tom Davis of Virginia. Mr. Hall, let me ask you, has 
the Customs Service altered any of its systems plans as a 
result of the new Department?
    Mr. Hall. The short answer is no with the exception of our 
e-mail system. We were in the midst of rolling out a new e-mail 
system for U.S. Customs. Because of an inventory that was done 
with the other potential components of the new department, we 
learned that we were odd man out and the other departments were 
using one product and we were using a different one, and we are 
in the process of replanning that effort. Rather than go 
forward with our system, we are going to align with the rest of 
the department.
    There has been no real delay or effect on our mission 
critical systems or our ongoing projects.
    Mr. Tom Davis of Virginia. Is the Customs Service a member 
of the Investment Review Group established at OMB?
    Mr. Hall. Yes, sir.
    Mr. Tom Davis of Virginia. What degree of input do you have 
into the projects of other agencies that will be in the new 
Department going forward?
    Mr. Hall. Actually there is very active discussion that 
comes on the projects that come before this board for review. I 
think the principal benefits of the process we have put in 
place is, at least in my career, it has been extraordinary 
visibility over what other bureaus are doing, other agencies 
are doing and also an opportunity to make sure our projects are 
aligned as we go forward and that we avoid any unnecessary 
incompatibilities that might be built into the initial plans. 
So the benefit to date has been one of coordination and being 
able to share across some of these projects.
    Mr. Tom Davis of Virginia. Ms. Bates, presumably the 
components of the proposed Department use FTS or FSS contracts 
for some of their IT needs. To what extent does OMB's freeze 
policy jeopardize these existing contracts? I take it not much 
from your comments.
    Ms. Bates. There is no jeopardy to the contracts. As you 
know, the contracts are non-mandatory and they are also open to 
all of the government, so there is no jeopardy there.
    Mr. Tom Davis of Virginia. Did their policy contradict any 
of the clauses in the contracts?
    Ms. Bates. No, not at all.
    Mr. Tom Davis of Virginia. You mentioned GSA's involvement 
with TSA to meet space, furniture, supplies and technology 
needs at airports, security director offices, and air marshall 
offices. How is FTS involved in this project and how does the 
OMB freeze affect this, the ability to equip offices?
    Ms. Bates. The FTS piece of that very important project is 
providing the local telecommunications services at all of those 
locations as well as some direct broadcast satellite services 
for news and the like. The project has been in total 
coordination with Mr. Schambach's office and it is understood 
that this could be viewed as interim with a deadline of 
November 19 to be later replaced as the overall architecture is 
developed.
    Mr. Tom Davis of Virginia. Mr. DiPentima, thanks for 
mentioning that the OMB freeze has complicated companies' 
efforts to develop plans concerning their allocation of 
resources. In my district, we have a number of companies that, 
in some cases, have had to let people go because they thought 
they had won something and all of a sudden it is pulled back. 
They had hired people in anticipation of moving ahead and now 
they are not sure when they will get the word or if the 
contract is even going to continue. That is a concern. I think 
it is outweighed by the overall Government concern that this 
money be spent right and be well coordinated but it is a 
concern and that is why we are trying to push and find out what 
the dates are from Mr. Forman and others that everything will 
start moving again.
    Given the examples of this from companies, have there been 
other effects on the private sector as a result of the freeze 
policy and if you don't have any right at your fingertips, we 
would be happy to keep open the record and you could document 
them; but we would like to have them in the record.
    Mr. DiPentima. So far, I think the way OMB is approaching 
this is the right way. We did have concern on the TSA contract 
because that is a very important area. I mentioned before 
mission critical. There is a very delicate and not clear line 
between infrastructure and mission critical systems. Certainly 
all the things that Pat Schambach has to do to get his new 
agency in place infrastructurewise, his entire mission depends 
upon him getting that in place.
    I don't have any clear examples to share with you here 
today but I certainly would like to keep the record open and 
allow ITAA to come back and respond to you in writing on that, 
Mr. Chairman.
    Mr. Tom Davis of Virginia. Thank you.
    Assuming that a Department of Homeland Security is enacted 
and the Senate can finish their act and we can get together 
with them and get this enacted in short order, what do you 
think are the most immediate systems issues that the Department 
should tackle?
    Mr. DiPentima. I think it is probably, as I mentioned in my 
comments, not unlike what would happen if we were to acquire a 
dozen new companies at once. You would have to go after the 
infrastructure the way OMB is doing. In our case, we would move 
quickly to common e-mail systems, common recordkeeping, time 
and attendance, common telephone and other communications 
systems because you are not going to carry out your mission if 
you do not have the proper infrastructure in place to do that.
    I think the way OMB is coming at this is the right way, not 
unlike we would do it if we were bringing together acquired 
companies. I hate to think that we would try to bring together 
this many acquired companies at once. So the challenge is, as I 
said before, daunting but we would do very much what OMB is 
doing.
    Mr. Tom Davis of Virginia. Thank you very much.
    Mr. Willemssen, in your testimony you note that OMB is 
using Section 8(b) of the OMB Circular A130 to determine what 
IT projects should go forward at the homeland security 
agencies. What is your view of this criteria? Are these the 
appropriate planning questions to ask as OMB reviews spending 
decisions by agencies?
    Mr. Willemssen. Those criteria would be consistent with our 
views. In fact, we assisted in commenting on A130 when the last 
version was put together. It appropriately focuses on an IT 
capital planning process, enterprise architecture, having 
needed security controls in place and focusing on process 
redesign before going out with major acquisitions.
    For particular investments, it has that focus on select 
control and evaluates those investments from the standpoint of 
cost benefit, risk and schedule. That is consistent with the 
guidance and methodologies we have previously published. So we 
would be supportive of that.
    Mr. Tom Davis of Virginia. In your testimony, you note that 
you have not had an opportunity to assess the impact on 
agencies. At this time, can you comment on the impact this 
freeze has on facilitating timely information sharing among the 
agencies? You note that a data base project was approved in a 
timely manner for the Secret Service. Do you think OMB is 
handling the expedited review process appropriately?
    Mr. Willemssen. The three projects we are aware of that 
went through the emergency request process, we didn't see any 
delays there that had any adverse impact on the affected 
agencies, so I think that has worked fairly well to OMB and the 
agencies credit.
    In addition, in terms of your question on facilitating 
timely information sharing among agencies, I think eventually 
that will be an outcome of this process. Again, consistent with 
my testimony, it has been too early to tell because we haven't 
seen the actual decisions from the groups formed to look at 
infrastructure and business systems, so I think that is a very 
likely outcome if the implementation activities are consistent 
with the broad framework that OMB has set out.
    Mr. Tom Davis of Virginia. What is unique at the Customs 
Service that it is already at Stage 5 of the GAO's enterprise 
architecture while other agencies are lagging behind? What can 
other agencies learn from this?
    Mr. Willemssen. Mr. Hall may want to add to this but I 
think we have been working with Customs for quite some time on 
their enterprise architecture and as part of our mandated 
reviews of their A system, so I think a large part of the 
credit goes to Mr. Hall and his leadership and dedication to 
making the enterprise architecture a reality. I think executive 
leadership really is a key factor.
    In line with that, a recognition of the importance of 
architectures and what I have heard from the witnesses today I 
think it has been fairly consistent that there is a recognition 
of the importance of that, especially with the proposed 
Department of Homeland Security.
    Mr. Tom Davis of Virginia. Do you want to comment on that?
    Mr. Hall. I think there are two major things that have 
allowed us to succeed with our enterprise architecture effort. 
One is you basically have to understand what it is and how you 
build one and I think of it as an engineering discipline, and I 
believe we have that at the U.S. Customs Service.
    Perhaps the most important is management support at the 
very top. I think what makes it work at Customs is that the 
senior leadership supports the process, allows us to require 
projects to comply with and that it is an integral part of how 
we decide what gets funded and what doesn't.
    When you have that environment, it makes it fairly 
straightforward to implement an enterprise approach.
    Mr. Tom Davis of Virginia. Thank you.
    I am going to take a moment to thank everyone for attending 
this hearing. I want to thank the witnesses, I want to thank 
Congressman Turner, as always, for participating and thank the 
staff for organizing it. I think it has been very productive.
    We are going to enter into the record the briefing memo 
distributed to subcommittee members and we will hold open the 
record for 2 weeks from this date for those who may want to 
forward submissions for possible inclusion. Mr. DiPentima, in 
particular, if you have any specifics to add from your 
organization's perspective, it is important to understand what 
the effect is on companies out there, their hiring practices 
and the employees.
    Mr. DiPentima. We will, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6064.042
    
    [GRAPHIC] [TIFF OMITTED] T6064.043
    
    [GRAPHIC] [TIFF OMITTED] T6064.044
    
    Mr. Tom Davis of Virginia. There being nothing else, these 
proceedings are closed. Thank you very much.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
